Supreme Court of the United States
Office of the Clerk
Washington, DC 20543-0001

Mr. LaVon Oden
Prisoner ID #715-906
P.O.Box 1812
Marion, OH 43302

Supreme Court, US.
, FILED

MAR 0 5 2021
OFFICE OF THE CLERK

Re: LaVon Oden
v. Neil Turner, Warden
No. 20-6856

Now comes, LaVon Oden respectfully moves this court
pursuant to'■ USCS-Supreme“Ct“R7“44TLfSTTeHIti^ f^r^reh^Lr^
of writ of certiorari in the above and titled case which was
ono^6 J?brUar? ?2’ 2021 and re<^eved this day of March 1st
zUzl. This petitioner reasserts his arguements for this petition
for rehearing.

Respectfully Submitted,
A-

received
MAR 12 2021

TABLE OF CONTENTS

GROUND ONE- The Trial Court erred as a matter of law by allowing
hearsay evidence to be admitted in violation of Appellants right
to a fair and impartial trial.

PAGE NQO •
1

GROUND TWO- The trial court erred as a matter of law by overrulin
appellants motion for a mistrial.

2

GROUND
THREE- Appellant was denied effective assistance
in
of counse
m violation of his constitutional rights thus prejudicing his
right to a fair trial.

2 -3

cnnnNDlFhURf Appellant was denied effective assistance of appella
dur?n»
failing t0 raise the issue that trial counsel knowingl
during closing arguement stated, that the defendant was guilty of
a iesser charge, without the defendants approval of this tactic,
-in- violation of his constitutional rights thus prejudicing his
right to a fair trial.
s
GROUND FIVE--Appellate counsel was constitutionally ineffective f
or failinguto raise the issue that trial counsel failed to file
a motion to suppress the identification prior to trial in violati
trial8 Constltutlonal eights thus prejudicing his right to a fair
“iS!X_ Appellant was denied effective assistance of appellat
renderp/^f^i11?5 t0 ff1Se the issue that prosecutorial miscond
rendered defendant-appellants trial fundamentally unfair, in
violation of his constitutional right to a fair trial.
Certificate of Service

3-4

4-5

5
6

GROUND TWO- Pursuant to the manifest necessity doctrine, Perez
prescribes a case by case approach, taking into account all the
facts and circumstances to determine whether there was i.e., a
high degree of necessity for the mistrial declaration Sound discietion
exists where the trial judge acts responsibly and deliberately
rather than irrationally or irresponsibly.

In this case, Petitioner made a motion for mistrial after
hearing testimony from Boston that he spoke to witness
Darryl Craig, while in lock up. Boston testified Craig helped
him remember some facts about the case.
It is unclear how bostons testimony was influenced, because
when the petitioners trial counsel attempted to question
Boston about what was discussed, the prosecution objected and
the trial court sustained the objection.
When the trial court sustained the objection preventing counsels
inquiry into this issue; trial counsel was denied adversarial
testing to determine if and how Craig influenced Bostons
testimony. Since counsel was prevented from performing the
necessary adversarial testing to determine the possible prejudice;
-pre-j-udice—shoul d—be.,must—be,presumed-pursuant—to- United- States———
v. Cronic,466 U.S. 648, at 659 (May 14th 1984). "
"
~
Since, the petitioners convictions were based solely on the
testimony of these witnesses; The trial court clearly did not
act responsibly. The trial court therefor abused its discretion
by; Overruling the motion; and preventing counsels inquiry into
Craig and Bostons conversation. See Ground t-wn in halipap pefi t- iV [>
for further support.
GROUND THREE- U.S. Supreme Court explained a defendant must show
counsels representation fell below an objective standard of
reasonableness. The reviewing court must evaluate the
reasonableness of counsels performance within the context of
the circumstances at the time of the alleged error.
The appellate court already determined this evidence is
inadmissible in their opinion and journal entry. See State v.
Oden, 2016 Ohio App. Lexis 3817. Therefore, the tirst prong,
requiring: the petitioner to show that counsels representation
fell below a reasonable standard has already been determined
and this court can proceed directly to the prejudice prong.
To satisfy the prejudice prong of the Strickland test, a defendan
must show that there is a reasonable probability that, but for
counsels unprofessional errors, the result of the proceeding
would have been different. A habeas petitioner is not entitled
to a presumption of prejudice unless it can be said that his
counsel failed meaningfully to oppose the prosecutions case.
Prejudice can be demonstrated under Strickland standard because
the hearsay evidence that was introduced influenced the jury in
drawing the conclusion of guilt.
0
Consels failure to object to the evidence was unreasonable
P& 2

4*

considering, the context of the circumstances at the time of the
alleged errors. Counsels failure to object allowed the state to
introduce a third eyewitness, to the jury, that was never subject
to cross examination.
Similarly, if counsel entirely fails to subject the prosecutions
case to meaningful adversarial testing, then there has been a
denial of Sixth Amendment rights that makes the adversary process
itself unreliable. No specific showing of prejudice was required
because the petitioner had been denied effective cross examinatio
which would be a constitutional error of the first magnitude and
no amount of showing of want of prejudice would cure it. United
States v. Cronic, 466 U.S. 648, at 659.
If prejudice is to be presumed in a situation denying the petitio
to meaningful adversarial testing, as demonstrated above, then
prejudice must be presumed in this case.
As described above, pursuant to Strickland, a habeas petitioner
is not entitled to a presumption of prejudice unless it can be
said that his counsel failed meaningfully to oppose the
prosecutions case. The AEDPA standard, demonstrates an incorporat
ion of Cronic into the Strickland standard. If prejudice is to be
presumed then the appellate courts application of the Strickland
standard” in~ requixing-the-outcome_of~the trial— to-be-different-—was in error. The appellate court clearly did not review the case
taking into consideration the Cronic exceptions.
In conclusion, the lack of the adversarial testing of the hearsay
evidence by trial counsel rendered the trial proceedings
fundamentally unfair. When trial proceedings are fundamentally
unfair prejudice has been demonstated pursuant to Lockhart,.
Cronic-and Stricklands
Ground Th T P P in H^Koac—potiti&R—f OXfurther support.
2) Counsel was Ineffective for failing to renew the motion
for mistrial;
Had counsel renewed the motion for mistrial at the conclusion
of trial; the court may have conducted the necessary inquiries in
to this issue to determine the actual eefect on the proceedings
This issue could have been better addresed by the court once
all of the relevant facts were presented; therefore, counsel
should have renewed the issue at the conclusion of proceedings.
GROUND FOUR- This court has held the position that a concession
of guilt does not amount to ineffective assistance of counsel,
per se, . The Court stated, a complete concession of guilt is a
serious strategic decision that must only be made after consultin
with the client and after recieving the clients consent or
acquiescenee. This court,placed the burden on the petitioner to
show that he was not consulted and that he did not agree to or
acquiesce in the concession strategy.
There are two seperate instances in which trial counsel.::
conceded to the guilt of the petitioner.
First, during the questioning of Boston counsel stated, Im :
agreeing that Lavon was the shooter. This statement, without
Pg-3

(

(

a jury instruction; or limitation to questioning was inappropiate
Trial counsels failure to phrase this statement clearly, as to
context.was highly improper, amounting to ineffective assistance
of counsel. Counsels negligent actions directly influenced the
jury to draw an assumption of guilt. Therefore counsels negligent
actions prevented a fair trial from being possible and counselors
statement fell below an objective standard of reasonable :
representation. Counsel failed to get permission for the use of r,
this tactic. See Ground Four in habeas petition for further support.

GROUND FIVE- This court uses a two-step analysis when consider
ing whether a pretrial identification procedure raises a very
substantial likelihood of irreparable misidentification. First
determining whether the identification procedure was impermissibl Y
suggestive, and if it was , then looking to the totality of the
circumstances to decide whether the identification was still reli
able.
At the first step, Petitioner claims the photo array (or photo li
ne up) was impermissibly suggestive because four of six photos
did not resemble defendant.
The second step, is the totality—of—the—circumstances analysis,
the Supreme Court enumerated the five factors for consideration;
1) the opportunity of the witness to view the criminal at the
time of the crime. In this case, the crime occured at night and
it was dark. Further the crime occured quickly. Mr. Johnson
was in the front drivers seat; and allegedly the shooter was on
the outside of the car, on the right back passenger side so his
ability to see the shooter clearly is doubtful. Mr. Johnson
could not have seen who fired the shot either because the shot
was fired after he drove off.
2) the witness degree of attention to the crime. In this case
In Johnsons February 5th statement in 2013 he stated, I dont
remember seeing Boston this clearly demonstrates that johnson
was not paying attention to the perpetrators as they approached
the vehicle.
3) the accuracy of the witness prior description of the
defendant. In this case, in johnsons initial description he said
I have no idea. He was a black guy. When asked is there anything
that stood out to you, like if you look at a group of people?
Johnson relied No sir. No sir. When asked do belive that if you
saw a picture of him againyyou would recognize him? Johnson
replied Maybe. I dont. :
4) the level of certainty demonstrated by the witness at the
confrontation. In this case, at the february 5th interview
johnson stated Somedays I feel like I will know if I see
a picture, but I dont, I dont know.
5) the length of time between the crime and confrontation.
In this case, Mr. Johnson admitted to the dgti T E
Pg-4

CERTIFICATE AND AFFIDAVIT OF
L ■ . -j, LaVon Oden

I LaVon Oden, state that these grounds presented for petition
for rehearing are limited to intervening circumstances of
substantial or controlling effect or to other substantial
grounds not previously presented.

LaVon Oden further states and certify that the petition for
rehearing is presented in good faith and not for delay, due
to covid 19 and other legal disavantages and restrictions to
the prison library.

Respectfully Submitted

Sworn to and subscribed in my presence on this day of march,2.^/*
2021.

Notary Public

A
★I

SARAH A COLEGROVE
Notary Public
ir> and for the State of Ohio
Commission Excites
8TWJ I MyNovemoar
15, 20

i

/

received

APR - 6 ?M\

